ti
5

(-»

APPENDIX A

IN THE NINTH COURT OF APPEALS

09-20-00141-CR

EX PARTE RODNEY DALE HOOD

On Appeal from the County Court at Law
, Liberty County, Texas
Trial Cause No. 39067

JUDGMENT
Having considered this cause on appeal, THE NINTH COURT OF
APPEALS concludes that the order of the trial court should be affirmed,

In

accordance with the Court’s opinion, IT IS THEREFORE ORDERED the order of
the trial court is affirmed.
Opinion of the Court delivered by Justice Hollis Horton
March 10, 2021
AFFIRMED
Copies of this judgment and the Court’s opinion are certified for observance.

Carly Latiolais
Clerk of the Court

4

APPENDIX’A

•*. »

In The
Court ofAppeals
Ninth District of Texas at Beaumont

NO. 09-20-00141-CR

EX PARTE RODNEY DALE HOOD

On Appealfrom the County CourtatLaw
Liberty County, Texas
Trial Cause No. 39067

MEMORANDUM OPINION
Rodney Dale Hood appeals from the trial court’s ruling denying his
application for habeas relief from a judgment in which he was found guilty of
committing a misdemeanor DWI.1 The record shows that Hood’s conviction arose
from an agreement based on a plea bargain. In a petition seeking to overturn his
conviction in Trial Court Cause Number 390679, Hood asked the trial court to set

judgment that is the subject of Hood’s habeas petition was assigned
' Cause Number 3 90679 by the court in which it was filed, the County Court atLw
of Liberty County, Texas.
1
EXHIBIT A

aside his conviction based on a claim alleging that he did not knowingly,
intelligently, or voluntarily plead guilty to the DWI. Additionally, Hood argues the
attorney who represented him on the DWI failed to discharge his duty to provide
Hood with effective assistance of counsel. Because we conclude the trial court did
not err in denyingHood’spetition, we affirm.
■ -..............

' Background

'

In 2012, Hood filed an application for a writ of habeas corpus. In it, he asked
the trial court to set aside his 1988 conviction on the misdemeanor DWI. Hood
amended the habeas applicationhe filed in 2012 in 2017 and alleged the State of
Texas “guaranteed (in writing) that the underlying misdemeanor DWI conviction
[sic] would never be usedto elevate or enhance any subsequent crime or sentence[.]”
In July and August 2019, the trial court heard argument from the attorneys for the
parties to consider the issues raised in Hood’s application challenging the validity of
the 1988 conviction for DWI. At the conclusion of the second hearing, the trial court
advised the attorneys who.were present the'court would deny Hood-’ s p etition. The
trial court also asked the attorney for the State to provide the court with an order to
carry out its ruling. The trial court signed an order denying Hood’s application in
April 2020. At that same time, the trial court provided the parties with its written
fmdings.
2

V*

In the order denying Hood’s petition seeking habeas relief, the trial court
explains in detail why it found Hood’s application for relief has no merit. For
instance, in one finding, the trial court explained that Hood’s allegations claiming
the State guaranteed Hood that it would never use Hood’s 1988 conviction on the
D WI to elevate or enhance some other sentence “is not credible.” .
After the trial court denied Hood’s petition, Hood appealed. In response to the
notice, the trial court appointed the same attorney who represented Hood in the trial
court in the habeas proceedingtorepresenthim in his appeal.- ►
On appeal, Hood’s attorney filed a brief explaining the attorney could find no
meritorious issues to argue in Hood’s appeal that would support an argument to
overturn the trial court’s ruling on Hood’s petition for habeas corpus. The brief
presents a professional evaluation ofthe record.2 The record also shows that Hood’s
attorney provided Hood with a copy of the brief in the appeal and informed Hood
about how he could obtain a copy ofthe record and file a pro seresponse.
Hood filed several briefs and supplemental briefs in the'appeal. In them, Hood
complains about the merits'ofthe trial court’s ruling to deny his application. He also

2See Anders v. California, 386 U.S. 738, 744 (1967); High v. State, 573
S.W.2d 807 (Tex. Crim. App. 1978).
3

complains about the adequacy of the attorney the trial court appointed to represent
him on his habeas application and in the appeal.
Analysis
After reviewing the appellate record, thq Anders brief filed by Hood’s counsel,
Hood’s.briefs and supplemental briefs, and the brief filed by the State, we find
Hood’s appeal is frivolous and lacks merit. The judgment of the trial court is
affirmed. Appellate counsel’s motion to withdraw is granted.3 All motions Hood
filed that have not been ruled on in this Court are denied. Hood is also not entitled
to the appointment of counsel to assist Hood should he seek to appeal. That said,
should Hood desire to have this Court’s ruling reviewed, he must either retain an
attorney to file a petition for discretionary review or file a pro se petition seeking
discretionary review in the Court of Criminal Appeals. Should Hood seek
discretionary review, he must file his petition within thirty days from the later of (1)
the date of this opinion, or (2) the date the last timely motion for rehearing or en
bancreconsiderationis overruledby this Court.4

3See Ex parte Bowen, 835 S.W.2d276,277(Tex. App.—Beaumont 1992, no
pet); Nichols v. State, 954 S.W.2d 83, 85-86 (Tex. App.—San Antonio 1997, no
pet .); Bruns v. State, 924 S.W.2d 176,177 (Tex. App.—San Antonio 1996,nopet.).
4See Tex. R. App. P. 68.2. Should Hood file a petition for discretionary
review, the petitionhe files in the Court of Criminal Appeals must comply with the
requirements inRule 68.4 oftheTexas Rules ofAppellate Procedure. Id. 68.3,68.4.
4

Because Hood’s appeal is frivolous, the trial court’ s'judgment is
AFFIRMED.

HOLLIS HORTON
Justice
Submitted.on October 27,2020 .
Op inion Delivered March 10,2021
Do Not Publish
Before Go lemon, C .J., Horton and Johnson, JJ.

5

j

{

4
ft

k

*-

APPENDIX B

i

\J
Cause Number 39067
Ex Parte

§
§
§
§
§

RODNEY DALE HOOD

i

IN THE COUNTYCOURT AT LAW
LIBERTY COUNTY, TEXAS
:i

FINDINGS OF FACT
AND CONCLUSIONS OF LAW

j

i

On this day, the Court decided the Application for Writ of Habeas Corpus

I

filed by Rodney Dale Hood pursuant to Article L1.09 of the Texas Code of Criminal
Procedure.
'i

BACKGROUND
1) RODNEY DALE HOOD (hereinafter Applicant), is currently incarcerated in
the Jester Hi Unit of the Institutional Division of the Texas Department of
Criminal Justice, TDCJ#Q 1659266, pursuant to the Judgment in Cause No. 1001-00283-CR in the 410th Judicial District Court, Montgomery County., Texas,
wherein Applicant was convicted on May 4, 2010 of the offense ofDRIVING
WHILE INTOXICATED. 3rd or.MORE (enhanced). and sentenced to-fifty (50}
years confinement in the TDCJ-1D.
2) On or about September 20, 1987, the Applicant was arrested for Driving While
Intoxicated and subsequently charged in Cause Number 39,067 in the Liberty
County Court at Law. On February 5, 1988, Mr. Hood was convicted and
Page 1

EXHIBIT B

;i

i

!
V
I

placed on community supervision in that cause number.. That conviction was
used as one of the two prior, jurisdictional convictions in Applicant's 2010
conviction in Montgomery County.
3) Applicant has sought review of his 2010 conviction through every means
j

available. His direct appeal, petition for discretionary' review and writ for
■!

certiorari were all denied upon an Anders brief by his attorney. See Hood v.

1
i

State, No. 14-10-00687-CR, 2011 WL 1660743 (Tex. App.—Houston [I4!h
Dist.] Apr. 29, 2011, pet. ref d) cert, denied sub. nom. Hood v. Texas, 133 S.Ct.
4

:

118 (2012). An Application for Writ of Habeas Corpus attempting to attack the
i
I

2010, Montgomery County conviction was denied by the Court of Criminal
Appeals without a written order. See Hood v. State, No. WR-75,764-02
(Tex.Crim.App. Nov. 6, 2013).
4) Applicant now seeks release from his incarceration for his 2010 sentence by
attacking his 1988 conviction. Applicant claims that his 1988 conviction is a
void judgment because the judgment appears to him to defer a finding of guilt,

i

in contravention of the law.
5} The Court of Criminal Appeals has considered a case almost exactly on point

i
•i

and there found that the language used in Applicant’s judgment was sufficient
i

evidence that the disposition was a conviction for the purposes of later
enhancement. See Gonzales v. State, 309 S.W.3d 48 (Tex.Crim.App. 2010J.
i

Page 2

‘

i

nt .
)

When read in context, the sense of each paragraph becomes quite clear.
The first paragraph shows (hat the judgment is final. The middle
paragraph then takes community supervision into consideration,
whereby the third paragraph at issue in this case suspends the imposed
sentence in *52 favor of such community supervision. Thus, the words
“the finding of guilty herein shall not be final, that no judgment be
rendered thereon” in the judgment do not pertain to the finality of the
conviction for enhancement purposes, but rather to the suspension of
the sentence necessary' to grant community supervision to appellant.

:!
!

Id at 51-52.
ii

FINDINGS OF FACT
6) The Applicant, Rodney Dale Flood, is the same subject as the defendant in

!

1

Cause Number 39067 of the Liberty County Court at Law, Liberty County,
Texas.
7) The Applicant, after being duly admonished and advised of his rights, pled
guilty in open court to the offense of Driving While Intoxicated in CauseNumber 39067 on February 5, 1988.
8) The Applicant executed and the court received as evidence against him a signed
Stipulation of Evidence wherein the Applicant:
confessed] to the following facts and agree and stipulate that these
facts are true and correct and constitute the evidence of this case. On
the 21st day of September, A.D., 1987, in Liberty County, Texas, I
[Applicant] did then and there unlawfully drive and operate a motor
vehicle in a public place, to-wit: a public road and highway, while
intoxicated; namely, not having the normal use of mental or physical
faculties by reason of the introduction of alcohol, a controlled
\j
ij

Page J

r

J
i

substance, a drug, or a combination of two or more of those substances
into the body; and having an alcohol concentration of 0.10 or more. . .
9) On February 5, 1988, the Court entered the following finding in its judgment:
The Court having heard the information read and the evidence
submitted thereon, it is considered and adjudged by the Court that
the Defendant is guilty as charged in the information of the offense
of driving while intoxicated and assesses his punishment at a fine of
$1500.00 and one year confinement in the Liberty County Jail, together
with all costs in this behalf incurred. (Emphasis added.)

l

10) The judgment next turns to the Applicant’s request for probation:
It appearing to the Court, however, that before this trial Defendant made
application in writing and under oath to the Court for probation herein;
and it further appearing to the Court that Defendant satisfies the
requirements of the Misdemeanor Probation Law of Texas and that the
ends of justice and the best interests of society and of the Defendant
will be served by granting probation in this cause.

■1

11) The judgment continues:
IT IS THEREFORE CONSIDERED, ORDERED AND ADJUDGED
that the finding of guilty herein shall not be final, that no judgment be
rendered thereon, and that Defendant be, and is hereby placed ori
probation in this cause for a period of two years from this date. . .
(Emphasis original).
12)

Applicant was arrested on April 29,1990 for a warrant for Revocation of

Probation in Cause Number 39067. Applicant posted bail and was released on

I

April 29, 1990 and was ordered to appear on Thursday May 24, 1990 at
8:00AM in the Liberty County Court at Law.

1
Page 4

41

0

13)

The Liberty County Clerk's File contains no additional actions taken by this

Court with regards to Cause Number 39067. No Judgment Revoking
Community Supervision was issued by this Court.
14)

■1

Applicant's allegation that the State of Texas “guaranteed (in writing) that

§

the underlying misdemeanor DWI conviction [sic] would never be used to
!

elevate or enhance any subsequent crime or sentence" is not credible.
15)

The Liberty County Clerk’s File contains no written plea agreements

between the State of Texas and the Applicant detailing any negotiated terms

w

whereby the State of Texas promised not to use “the underlying misdemeanor
DWI conviction” as a basis for enhancement oPTuture crimc[s] or'

Iil]

sentence^]”.
16)

Applicant's allegation that his trial counsel advised him that the “language in
:!

the written contract signed by Applicant guaranteed that the DWI conviction
[sic] underlying this issue could .never be used to elevate or enhance any future
crime or sentence” is not credible.
17)

Applicant executed and submitted written admonishments. In them,

Applicant stated:
!

... I, the undersigned defendant, ask the Court to proceed immediately
after this paper is filed, to arraign me in this case, to accept my Pica of
Guilty and try me without a Jury, to receive evidence concerning the
facts of this Case in the way I have agreed to above, to render

1

Page 5

4t r
j

i'’*:

A

; 'A

0

judgment convicting ine on my Plea of Guilty, and having done so,
to immediately assess my punishment in the case... (Emphasis added).

)
f:

CONCLUSIONS OF LAW
18)

At the time that Applicant was placed on community supervision. Article

6701/-1 of the Texas Revised Civil and Criminal Statutes governed judgments

J
5

adjudicating Driving While Intoxicated offenses. ‘Tor the purposes of this
article, a conviction for an offense that occurs on or after January 1, 1984, is a

1

final conviction, whether or not the sentence for the conviction is probated.”
Art. 670IM, Vernon’s Revised Statutes.
19)

.!

:i

The words “the finding of guilty herein shall not be final, that no judgment

be rendered thereon” in the judgment do not pertain to the finality of the
conviction, but rather to the suspension of the sentence necessary to grant
'

community supervision lo appellant.
20)

Applicant’s conviction was final as a matter of law.

21)

Applicant’s judgment was within the prescribed minimum and maximum

authorized by statute.
22)

Applicant's judgment was not void as a matter of.law.

I
Page 6

45

\

A

u

w

THEREFORE, Rodney Dale Hood's Application for Writ of Habeas Corpus is
DENIED.
!

Signed on

■;

:i
1

oefo Sing

t

C3

1

/

1

l /
z£uJL-*~K'—£L-

apr

-t m
c-*•■’:.■■

t!

_v

\

■i

•» V.i
jtfvT'

!

■]

•i
M

Page 7

li
r

V

4

i

A

APPENDIX C

:

4

s

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.Q>.^(^A23fi§i«CABgpL STATION..AUSTIN, TEXAS 78711
STATE OF TEXAS
Q$
H^^SstrS1^ U S- POSTAGE»PITNEY80WES
PENALTY FOR
//
-=’J^ —=»
PRIVATE USE

STST $ 000.279

5/19/2021

f|/ fafNoTaaw

HOOD, EX PARTE RODNEY DACE? ^Qt. Noh39067
PD-0260-21
On -this day, the Appellant's Pro Se,. petition for discretionary review has been
. refused.
Deana Williamson, Clerk
'

■

V

RODNEY DALE HOOD
JESTER III UNIT - TDC # 1659266
3 JESTER ROAD
RICHMOND, TX 77406 -

/

i

sMIWHAB "74GB

:.

6

APPENDIX C

■ V

